No. 19-

 

 

IN THE

Supreme Court of the Anited States

BETH LEWIS MAZE,

Petitioner,
v.

KENTUCKY JUDICIAL CONDUCT COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Kentucky

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
798 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 4, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
